             Audit Report



  Adjustment of Disabled Wage
Earners’ Benefits at Full Retirement
               Age




        A-09-12-11264 | May 2013
MEMORANDUM


Date:      May 17, 2013                                                       Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration accurately adjusted disabled wage earners’ benefits
           when they reached full retirement age.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Adjustment of Disabled Wage Earners’ Benefits at Full
Retirement Age
A-09-12-11264
May 2013                                                                     Office of Audit Report Summary

Objective                                   Our Findings

To determine whether the Social             SSA did not always properly adjust the benefits of disabled wage
Security Administration (SSA)               earners at FRA. We estimate:
accurately adjusted disabled wage
earners’ benefits when they reached         •   SSA improperly paid about $8.2 million to 652 beneficiaries
full retirement age (FRA).                      who had previously elected reduced retirement benefits to avoid
                                                workers’ compensation or public disability benefits offset.
Background
                                            •   SSA improperly paid about $1.4 million to 1,345 beneficiaries
The Social Security Act contains two            because it did not correctly adjust their disability benefits to
provisions that affect the calculation of       account for the months they received reduced retirement
monthly benefits for individuals who            benefits before FRA.
are entitled to both retirement and
disability benefits before FRA.             These payment errors occurred because SSA did not (1) establish
                                            manual diaries to ensure it increased monthly benefit amounts at
The first provision allows a disabled       FRA, (2) take appropriate action on the diaries when they matured,
beneficiary to elect a reduced              or (3) account for prior entitlement to reduced retirement benefits.
retirement benefit at age 62 to avoid
workers’ compensation or public             Our Recommendations
disability benefits offset. In these
instances, the beneficiary is               We recommend that SSA:
simultaneously entitled to disability
and reduced retirement benefits.            1. Take appropriate action to pay underpayments and establish
When the beneficiary attains FRA, the          overpayments for the 53 beneficiaries identified by our audit.
benefit reduction must be eliminated
                                            2. Review and take appropriate action for the remaining
for any months of simultaneous
                                               population of 969 beneficiaries who were simultaneously
entitlement to disability benefits.
                                               entitled to retirement and disability benefits while eligible for
The second provision concerns                  workers’ compensation or public disability benefits.
individuals who elect reduced
                                            3. Improve controls to ensure reduction factors are properly
retirement benefits before they become
                                               adjusted upon entitlement to disability benefits and at FRA. For
entitled to disability benefits. In these
                                               example, generate an alert at FRA for beneficiaries who were
instances, the disability benefit must be
                                               simultaneously entitled to retirement and disability benefits but
reduced for the months the individual
                                               elected to receive reduced retirement benefits.
was entitled to reduced retirement
benefits.                                   4. Remind employees to ensure reduction factors are properly
                                               adjusted upon entitlement to disability benefits and at FRA.

                                            SSA generally agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Retirement Benefits Not Increased at FRA ...............................................................................3
     Improper Payments to Beneficiaries Who Received Reduced Retirement Benefits Before
     Entitlement to Disability ............................................................................................................5
     SSA Actions in Response to Our Prior Audit ............................................................................6
Conclusions ......................................................................................................................................8
Recommendations ............................................................................................................................8
Agency Comments ...........................................................................................................................9
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)
ABBREVIATIONS
C.F.R.               Code of Federal Regulations

FRA                  Full Retirement Age

MBR                  Master Beneficiary Record

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

SSA                  Social Security Administration

U.S.C.               United States Code




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) accurately
adjusted disabled wage earners’ benefits when they reached full retirement age (FRA).

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance program under Title II of the
Social Security Act. 1 The program provides monthly benefits to retired and/or disabled workers
and their families and to survivors of deceased workers. Retired workers are eligible for reduced
retirement benefits before FRA. To calculate the monthly benefit amount, SSA applies a
reduction factor based on the number of months before FRA for which the individual received
reduced retirement benefits. 2 The Social Security Act contains two provisions that affect the
calculation of monthly benefits for individuals who are entitled to both retirement and disability
benefits before FRA. 3

The first provision allows a disabled beneficiary to elect a reduced retirement benefit at age 62 to
avoid workers’ compensation or public disability benefits offset or to receive a higher total
family benefit amount. In these instances, the beneficiary is simultaneously entitled to disability
and reduced retirement benefits. When the beneficiary attains FRA, the benefit reduction must
be eliminated for any months of simultaneous entitlement to disability benefits. 4 When a
beneficiary makes this election, SSA employees must prepare a manual diary to increase the
monthly benefit amount at FRA. 5

The second provision concerns individuals who elect reduced retirement benefits before they
become entitled to disability benefits. In these instances, the disability benefit must be reduced
for the months the individual was entitled to reduced retirement benefits. 6




1
    Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
2
 Social Security Act § 202(q), 42 U.S.C. § 402(q). See also SSA, POMS, RS 00615.004 (September 16, 2002).
FRA occurs at age 65 for those born before January 2, 1938. FRA increases incrementally from age 65 to
age 67 for those born from January 2, 1938 through January 1, 1962. FRA occurs at age 67 for those born after
January 1, 1962.
3
    Social Security Act §§ 202(q)(2) and (q)(7)(F), 42 U.S.C. §§ 402(q)(2) and (q)(7)(F).
4
 Social Security Act § 202(q)(7)(F), 42 U.S.C. § 402(q)(7)(F). See also SSA, POMS, DI 52101.001
(April 22, 2010).
5
    SSA, POMS, RS 00615.482.C (December 20, 2010).
6
    Social Security Act § 202(q)(2), 42 U.S.C. § 402(q)(2). See also SSA, POMS, RS 00615.410 (March 16, 2011).




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)                             1
In a 2008 audit, 7 we found that SSA did not always properly adjust disabled wage earners’
benefits at FRA. We estimated that SSA underpaid about $39.9 million to 2,782 beneficiaries
who previously elected reduced retirement benefits to avoid workers’ compensation or public
disability benefits offset. We also reported that SSA improperly paid about $3.2 million to
3,220 beneficiaries because it did not apply the correct reduction factors for the months of
entitlement to retirement benefits before FRA.

For our current audit, we identified 13,831 beneficiaries who attained FRA and whose
benefit amounts were affected by the 2 provisions of the Social Security Act. Of these,
1,019 beneficiaries had elected reduced retirement benefits to avoid workers’ compensation
or public disability benefits offset. From this population, we selected a random sample of
50 beneficiaries for review. In addition, 12,812 beneficiaries had received reduced retirement
benefits before entitlement to disability benefits. From this population, we selected a random
sample of 200 beneficiaries for review (see Appendix A).

RESULTS OF REVIEW
SSA did not always properly adjust the benefits of disabled wage earners at FRA. Based on our
random samples, we estimate:

•     SSA improperly paid about $8.2 million to 652 beneficiaries who had previously elected
      reduced retirement benefits to avoid workers’ compensation or public disability benefits
      offset. This consisted of improper payments for (1) new errors in our current audit and
      (2) unresolved errors from our prior audit.

•     SSA improperly paid about $1.4 million to 1,345 beneficiaries because it did not correctly
      adjust their disability benefits to account for the months they received reduced retirement
      benefits before FRA. This consisted of improper payments for (1) new errors in our current
      audit and (2) unresolved errors from our prior audit.

We are 90-percent confident the number of beneficiaries improperly paid who previously elected
reduced retirement benefits to avoid workers’ compensation or public disability benefits offset
ranged from 527 to 764, and the improper payments ranged from $6.3 to $10.1 million. We are
also 90-percent confident the number of beneficiaries improperly paid because SSA did not
correctly adjust their disability benefits for the months they received reduced retirement benefits
ranged from 919 to 1,887, and the improper payments ranged from $694,946 to $2.1 million
(see Appendix B).

These payment errors occurred because SSA did not (1) establish manual diaries to ensure it
increased monthly benefit amounts at FRA, (2) take appropriate action on the diaries when they
matured, or (3) account for prior entitlement to reduced retirement benefits.



7
    SSA, OIG, Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-07-17134), March 2008.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)                          2
Retirement Benefits Not Increased at FRA
The Social Security Act allows a disabled beneficiary to elect a reduced retirement benefit
at age 62 to avoid workers’ compensation or public disability benefits offset or to receive a
higher total family benefit amount. When the beneficiary attains FRA, the benefit reduction
must be eliminated for any months of simultaneous entitlement to disability and reduced
retirement benefits. 8

We identified 1,019 beneficiaries 9 who had elected reduced retirement benefits to avoid workers’
compensation or public disability benefits offset whose monthly benefit amount was not
increased at FRA. Our review of a random sample of 50 beneficiaries found that SSA did
not increase the monthly benefit amounts of 32 (64 percent) beneficiaries to reflect their
simultaneous entitlement to disability benefits. As depicted in Figure 1, this consisted of
8 beneficiaries in our current audit and 24 beneficiaries from our prior audit for whom SSA had
not taken corrective action. 10 The remaining 18 (36 percent) beneficiaries were correctly paid.
This occurred because SSA employees did not always establish manual diaries or take action on
the manual diaries when they matured. As a result, SSA improperly paid these beneficiaries
$400,667. 11 This included $7,379 in overpayments to 2 beneficiaries and $393,288 in
underpayments to 30 beneficiaries.




8
 Social Security Act § 202(q)(7)(F), 42 U.S.C. § 402(q)(7)(F). See also SSA, POMS, DI 52101.001
(April 22, 2010).
9
 We identified a population of 23,510 beneficiaries who had elected reduced retirement benefits to avoid workers’
compensation or public disability offset. From this, we identified 1,019 beneficiaries whose monthly benefit amount
had not been increased at FRA.
10
  Our prior audit included underpayments from June 1990 to May 2007. For our current audit, the amounts
reported represent underpayments from June 2007 to September 2012.
11
     The mean was $12,521. The median was $13,628.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)                             3
                         Figure 1: Retirement Benefits Not Increased at FRA


                                Based on a Random Sample of 50 Beneficiaries



                 Unresolved Errors                                        New Errors (16%)
                 from Prior Audit
                      (48%)




                                                                        Non-Errors (36%)




For example, a disabled beneficiary elected reduced retirement benefits at age 62 to avoid
workers’ compensation offset. When the beneficiary made this election, SSA correctly applied
a retirement reduction factor of 45 months to reduce the monthly benefit. However, when the
beneficiary attained FRA in August 2008, SSA did not eliminate the retirement reduction factor
to reflect the simultaneous entitlement to disability benefits, as required. As a result, SSA
underpaid the beneficiary by $18,426 from August 2008 to September 2012.

We believe SSA should improve controls to ensure reduction factors are properly adjusted
at FRA. SSA’s automated system generates an alert for beneficiaries who may be eligible
for higher disability benefits when the workers’ compensation or public disability benefits
offset is removed at age 65. However, there are no alerts at FRA for beneficiaries who were
simultaneously entitled to retirement and disability benefits but who elected to receive reduced
retirement benefits. Since disability benefits must be converted to retirement benefits and
recalculated at FRA, SSA should create an alert to ensure the benefits are properly converted.
SSA relies on its employees to establish manual diaries for these beneficiaries. 12 We found no
evidence there were any manual diaries pending for the 32 improperly paid beneficiaries in our
sample. If the diary is not prepared, the benefits may not be recalculated. An alert should ensure
these benefits are properly identified and converted at FRA.




12
     SSA, POMS, RS 00615.482.C (December 20, 2010).




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)             4
Improper Payments to Beneficiaries Who Received Reduced Retirement
Benefits Before Entitlement to Disability
The Social Security Act states that, when a beneficiary is entitled to disability benefits after
receiving reduced retirement benefits, the disability benefits are reduced by the amount the
retirement benefits would have been reduced had the beneficiary attained FRA in the first month
of entitlement to disability benefits. 13 SSA policy states the reduction factor shall be the number
of months from the month of entitlement to retirement benefits to the month of entitlement to
disability benefits. 14

We identified 12,812 beneficiaries who were entitled to reduced retirement benefits before they
became eligible for disability benefits and whose benefits may not have been properly reduced
for the months of prior entitlement. Our review of a random sample of 200 beneficiaries found
that SSA did not properly adjust the monthly benefit amounts of 21 (10.5 percent) beneficiaries
when they became entitled to disability benefits or when they attained FRA. As depicted in
Figure 2, this consisted of 19 beneficiaries in our current audit and 2 beneficiaries from our
prior audit for whom SSA had not taken corrective action. 15 As a result, SSA improperly paid
these beneficiaries $21,852. 16 This included $12,870 in overpayments to 11 beneficiaries and
$8,982 in underpayments to 10 beneficiaries. The remaining 179 (89.5 percent) beneficiaries
were correctly paid.




13
     Social Security Act § 202(q)(2), 42 U.S.C. § 402(q)(2).
14
     20 C.F.R. § 404.317. See also SSA, POMS, RS 00615.410.B.2 (March 16, 2011).
15
  Our prior audit included improper payments from June 1990 to May 2007. For our current audit, the amounts
reported represent improper payments from June 2007 to September 2012.
16
     The mean was $1,047. The median was $703.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)                          5
              Figure 2: Beneficiaries Receiving Retirement Benefits Before FRA


                           Based on a Random Sample of 200 Beneficiaries


                      Non-Errors
                       (89.5%)                                              New Errors (9.5%)




                                                                            Unresolved Errors
                                                                            from Prior Audit
                                                                                  (1%)



This occurred because SSA employees did not apply the proper reduction factors when the
beneficiaries subsequently became entitled to disability benefits after receiving reduced
retirement benefits.

For example, a beneficiary elected reduced retirement benefits at age 63. SSA correctly applied
a 28-month retirement reduction factor to the monthly benefit. When the beneficiary became
eligible for disability in December 2007, SSA should have reduced the disability benefits to
account for 10 months of prior retirement benefits received. Instead, SSA incorrectly applied a
reduction factor of 15 months and, at FRA, applied a reduction factor of 20 months. As a result,
SSA underpaid the beneficiary $3,562 from December 2007 to September 2012.

SSA Actions in Response to Our Prior Audit
Our 2008 audit 17 found that SSA had not properly adjusted disabled wage earners’ benefits
at FRA. We estimated that SSA underpaid about $39.9 million to 2,782 beneficiaries who
previously elected reduced retirement benefits to avoid workers’ compensation or public
disability benefits offset. We also reported that SSA improperly paid about $3.2 million to
3,220 beneficiaries because it did not apply the correct reduction factors for the months of
entitlement to reduced retirement benefits before entitlement to disability. Our prior report
included several recommendations for corrective action.

1. Take corrective action to pay underpayments and establish overpayments for the
   100 beneficiaries identified by our audit.



17
 SSA, OIG, Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-07-17134),
March 2008.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)               6
    SSA Actions – SSA stated it took corrective action to pay underpayments and establish
    overpayments for the 100 beneficiaries.

    OIG Comments – We found that SSA had taken action for 96 of the 100 beneficiaries in
    our prior audit. As a result, SSA paid about $1.5 million in underpayments and recovered
    $2,243 in overpayments. SSA did not take action for the remaining four beneficiaries.

2. Identify and take corrective action on the population of beneficiaries underpaid because their
   benefits were not increased at FRA to eliminate the benefit reduction for any months of
   entitlement to disability benefits.

    SSA Actions – According to SSA, it identified about 7,700 disabled beneficiaries who
    attained age 65 between January 2003 and July 2007 and received reduced retirement
    benefits from age 65 to FRA. SSA stated it mailed letters to notify these beneficiaries they
    may have been underpaid. SSA also stated it had created an alert at age 65 for beneficiaries
    who previously elected reduced retirement benefits to avoid workers’ compensation offset to
    receive higher disability benefits.

    OIG Comments – SSA’s actions were generally effective for the beneficiaries who attained
    age 65 between January 2003 and July 2007. Of the 32 improper payments we identified
    during our current audit, only 1 attained FRA during this period. However, 31 of the
    32 improper payments were for beneficiaries who attained FRA before January 2003 or after
    July 2007. Finally, we believe an automated alert at FRA for these cases may help ensure
    SSA employees take corrective action to increase benefits at FRA.

3. Identify and take corrective action on the population of beneficiaries who are improperly
   paid because they received reduced retirement benefits before entitlement to disability
   benefits.

    SSA Actions – SSA stated the overpayments resulted from the incorrect payment of full
    disability benefits after prior entitlement to retirement benefits and agreed to explore ways
    of handling these overpayments. SSA also stated that, in 2010, it had approved a project to
    identify and correct the population of beneficiaries who were improperly paid because they
    received reduced retirement benefits before entitlement to disability benefits. However,
    because of limited resources, SSA was unable to implement the project.

    OIG Comments – At the time of our current audit, SSA had not implemented this
    recommendation. Of the 21 improper payments we identified during our current audit,
    2 were for beneficiaries from our prior audit for whom SSA had not taken corrective action.

    Remind employees to prepare manual diaries when processing claims for simultaneous
    entitlement to retirement and disability benefits and take appropriate action on the diaries
    when they mature.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)                7
       SSA Actions – In April 2008, SSA issued a reminder for employees to establish manual
       diaries when processing these cases and take action on the diaries when they mature. 18

       OIG Comments – For our current audit, we found no evidence that manual diaries were
       prepared for any of the 32 improper payments. Should SSA create an automated alert at
       FRA for these cases, manual diaries would no longer be necessary.

4. Establish appropriate controls to ensure that reduction factors are properly adjusted at FRA.

       SSA Actions – SSA stated that alerts should be automatically generated for these cases and
       agreed to explore ways of addressing these errors. SSA also stated that, in 2010, it approved
       a project to establish automated controls to ensure that reduction factors were properly
       adjusted at FRA. However, because of limited resources, SSA was unable to implement the
       project.

       OIG Comments – At the time of our current audit, SSA had not implemented this
       recommendation.

CONCLUSIONS
SSA did not always properly adjust the benefits of disabled wage earners at FRA. Based on our
random samples, we estimate SSA (1) improperly paid about $8.2 million to 652 beneficiaries
who had previously elected reduced retirement benefits to avoid workers’ compensation or
public disability benefits offset and (2) improperly paid about $1.4 million to 1,345 beneficiaries
because it did not correctly adjust their disability benefits to account for the months they
received reduced retirement benefits before FRA (see Appendix B).

Our review identified a high error rate (64 percent) and high average payment error ($12,521) for
the beneficiaries in our sample who previously elected reduced retirement benefits to avoid
workers’ compensation or public disability benefits offset. Conversely, the beneficiaries in our
sample who received reduced retirement benefits before entitlement to disability benefits had a
lower error rate (10.5 percent) and lower average payment error ($1,041).

RECOMMENDATIONS
We recommend that SSA:

1. Take appropriate action to pay underpayments and establish overpayments for the
   53 beneficiaries identified by our audit.




18
     SSA, Administrative Message 08056, April 22, 2008.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)               8
2. Review and take appropriate action for the remaining population of 969 beneficiaries who
   were simultaneously entitled to retirement and disability benefits while eligible for workers’
   compensation or public disability benefits.

3. Improve controls to ensure staff use reduction factors properly in making adjustments upon
   entitlement to disability benefits and at FRA. For example, generate an alert at FRA for
   beneficiaries who were simultaneously entitled to retirement and disability benefits but
   elected to receive reduced retirement benefits.

4. Remind employees to apply the proper reduction factors when beneficiaries subsequently
   become entitled to disability benefits after receiving reduced retirement benefits.

AGENCY COMMENTS
SSA agreed with Recommendations 1, 3, and 4 and stated it would defer agreeing with
Recommendation 2 until it reviewed the 53 sample cases identified by our audit. The Agency’s
comments are included in Appendix C.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)                9
                                       APPENDICES




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)
Appendix A – SCOPE AND METHODOLOGY
We reviewed two provisions of the Social Security Act that affect the monthly benefit amount of
individuals who were entitled to disability benefits and subsequently attained full retirement age
(FRA). 1 In April 2012, we obtained from the Social Security Administration’s (SSA) Master
Beneficiary Record (MBR) a data extract of 1,019 beneficiaries in current pay status who had
attained FRA and previously elected reduced retirement benefits to avoid workers’ compensation
or public disability benefits offset. We also obtained a data extract of 12,812 beneficiaries in
current pay status who had attained FRA and previously received reduced retirement benefits
before entitlement to disability benefits.

To accomplish our objective, we

•      reviewed the applicable sections of the Social Security Act, Code of Federal Regulations,
       and U.S. Code as well as SSA’s Program Operations Manual System;

•      interviewed SSA employees from the Western Program Service Center and Office of
       Retirement and Survivors Insurance Systems;

•      selected 2 random samples of (1) 50 beneficiaries who were simultaneously entitled to
       retirement and disability benefits while eligible for workers’ compensation or public
       disability benefits and (2) 200 beneficiaries who had received reduced retirement benefits
       before entitlement to disability benefits;

•      reviewed queries from SSA’s MBR, Online Retrieval System, and Claims Folder Records
       Management System; and

•      used SSA’s Interactive Computation Facility to determine the amount of benefits payable.

We determined whether the computer-processed data from the MBR were sufficiently reliable
for our intended use. We tested the data to determine their completeness and accuracy. These
tests allowed us to assess the reliability of the data and achieve our audit objectives.

We evaluated SSA’s controls and procedures for calculating the reduction factors of wage
earners upon entitlement to retirement or disability benefits and at FRA. Specifically, we
determined whether SSA accurately paid the beneficiaries after adjusting the reduction factors.
In our prior audit, 2 we reported the total under- and overpayments from initial entitlement to
retirement or disability benefits to May 2007. For our current audit, the amounts reported
represent the total underpayments and overpayments from June 2007 to September 2012.



1
    Social Security Act §§ 202(q)(2) and (q)(7)(F), 42 U.S.C. §§ 402(q)(2) and (q)(7)(F).
2
    SSA, OIG, Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-07-17134), March 2008.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)                        A-1
We conducted audit work in Richmond, California, and Baltimore, Maryland, between July and
December 2012. The entity audited was the Office of Operations under the Office of the Deputy
Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)          A-2
Appendix B – SAMPLING METHODOLOGY AND RESULTS
We obtained two data extracts from the Social Security Administration’s (SSA) Master
Beneficiary Record (MBR) of beneficiaries who were in current pay status and received reduced
retirement benefits. The first extract consisted of wage earners who were simultaneously entitled
to retirement and disability benefits while eligible for workers’ compensation or public disability
benefits and attained full retirement age (FRA) on or before October 2011. The second extract
consisted of wage earners who received reduced retirement benefits before entitlement to
disability benefits.

Wage Earners Simultaneously Entitled to Retirement and Disability Benefits
and Workers’ Compensation or Public Disability Benefits
Our first extract consisted of 1,019 beneficiaries. We randomly selected 50 beneficiaries
and calculated the monthly benefit amounts and improper payments for each beneficiary.
Specifically, we calculated the reduction factor and determined whether it had been properly
adjusted at FRA. We found that SSA did not adjust the reduction factors for 32 beneficiaries,
resulting in $400,667 in improper payments. This consisted of $107,339 for 8 beneficiaries in
our current audit and $293,328 for 24 beneficiaries from our prior audit for whom SSA had not
taken corrective action. Projecting our sample results to the population of 1,019 beneficiaries,
we estimate that SSA improperly paid about $8.2 million to 652 beneficiaries from June 2007 to
September 2012.

The following tables provide the details of our sample results and statistical projections.

                                 Table B–1: Population and Sample Size
                                       Description                   Beneficiaries

                                   Population Size                        1,019
                                     Sample Size                              50

                          Table B–2: Unadjusted Reduction Factors at FRA
            Description                              Beneficiaries                   Improper Payments

         Sample Results                                      32                           $400,667
         Point Estimate                                     652                         $8,165,593
    Projection - Lower Limit                                527                         $6,253,973
    Projection - Upper Limit                                764                        $10,077,214
Note:   All statistical projections are at the 90-percent confidence level.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)                     B-1
              Table B–3: Unadjusted Reduction Factors at FRA – Current Audit
            Description                             Beneficiaries              Improper Payments

         Sample Results                                        8                       $107,339
         Point Estimate                                     163                    $2,187,569
    Projection - Lower Limit                                 86                        $841,334
    Projection - Upper Limit                                272                    $3,533,804
Note:   All statistical projections are at the 90-percent confidence level.

                Table B–4: Unadjusted Reduction Factors at FRA – Prior Audit
            Description                             Beneficiaries              Improper Payments

         Sample Results                                      24                        $293,328
         Point Estimate                                     489                    $5,978,025
    Projection - Lower Limit                                367                    $4,170,082
    Projection - Upper Limit                                613                    $7,785,967
Note:   All statistical projections are at the 90-percent confidence level.

Wage Earners Receiving Reduced Retirement Benefits Before Entitlement to
Disability Benefits
Our second extract consisted of 12,812 beneficiaries. We randomly selected 200 beneficiaries
and calculated the reduction factors for each beneficiary. Specifically, we calculated the
reduction factors upon entitlement to retirement or disability benefits and at FRA. We also
calculated the total improper payments for each beneficiary. We found that SSA did not
properly adjust the reduction factors for 21 beneficiaries, resulting in $21,852 in improper
payments. This consisted of 19 beneficiaries in our current audit and 2 beneficiaries from
our prior audit for whom SSA had not taken corrective action. Projecting our results to the
population of 12,812 beneficiaries, we estimate that SSA improperly paid about $1.4 million
to 1,345 beneficiaries from June 2007 to September 2012.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)               B-2
The following tables provide the details of our sample results and statistical projections.

                                 Table B–5: Population and Sample Size
                                     Description                     Beneficiaries

                                  Population Size                       12,812
                                    Sample Size                               200

                Table B–6: Improperly Adjusted Reduction Factors Before FRA
            Description                             Beneficiaries                    Improper Payments

         Sample Results                                      21                           $21,852
         Point Estimate                                  1,345                         $1,399,839
    Projection - Lower Limit                                919                          $694,946
    Projection - Upper Limit                             1,887                         $2,104,732
Note:   All statistical projections are at the 90-percent confidence level.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)                     B-3
           Appendix C – AGENCY COMMENTS




                                           SOCIAL SECURITY

MEMORANDUM

Date:      April 18, 2013                                                                  Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, "Adjustment of Disabled Wage Earners’ Benefits
           at Full Retirement Age" (A-09-12-11264)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)                C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
ADJUSTMENT OF DISABLED WAGE EARNERS’ BENEFITS AT FULL
RETIREMENT AGE (FRA)" (A-09-12-11264)


Recommendation 1

Take appropriate action to pay underpayments and establish overpayments for the
53 beneficiaries identified by our audit.

Response

We agree. We will review the 53 cases and take appropriate corrective action by July 31, 2013.

Recommendation 2

Review and take appropriate action for the remaining population of 969 beneficiaries who were
simultaneously entitled to retirement and disability benefits while eligible for workers’
compensation or public disability benefits.

Response

We defer agreeing to this recommendation. If our review of the 53 cases from
Recommendation 1 confirms the findings, and if resources permit, we will review the remaining
population of 969 beneficiaries. Our target completion date is September 30, 2013 (end of fiscal
year 2013).

Recommendation 3

Improve controls to ensure staff use reduction factors properly in making adjustments upon
entitlement to disability benefits and at FRA. For example, generate an alert at FRA for
beneficiaries who were simultaneously entitled to retirement and disability benefits but elected to
receive reduced retirement benefits.

Response

We agree. Resources permitting, we will improve controls to ensure staff use reduction factors
properly. However, implementation of this recommendation is contingent upon the availability
of Strategic Information Technology Assessment and Review resources.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)           C-2
Recommendation 4

Remind employees to apply the proper reduction factors when beneficiaries subsequently
become entitled to disability benefits after receiving reduced retirement benefits.

Response

We agree. We will issue an Administrative Message to remind employees to properly adjust
reductions factors upon entitlement to disability benefits and at FRA.




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)       C-3
Appendix D – MAJOR CONTRIBUTORS
James J. Klein, Director, San Francisco Audit Division

Jack H. Trudel, Audit Manager

Daniel Hoy, Senior Auditor




Adjustment of Disabled Wage Earners’ Benefits at Full Retirement Age (A-09-12-11264)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
